E-FILED
Court of Special Appeals
Gregory Hilton
3/1/2021 10:38 AM

Circuit Court for Montgomery County
Case No. 111360C
UNREPORTED
IN THE COURT OF SPECIAL APPEALS
OF MARYLAND
No. 725
September Term, 2020
POST-CONVICTION
Richard M. Miller
v.

State of Maryland
Nazarian,
Leahy,
Zamoch, Robert A.
(Senior Judge, Specially Assigned),
JJ.
Per Curiam

Filed: March 1, 2021

The application of Richard M. Miller for leave to appeal from a denial of petition
for post-conviction relief, having been read and considered be, and is hereby, denied.
APPLICATION FOR LEAVE TO
APPEAL DENIED.
ANY COSTS TO BE PAID BY
APPLICANT.

APPENDIX

£

/•

t

"I

'p'

7MWRYLAND

IN THE G

RICHARD MILLER,

■

)

)
)
)
)

Petitioner

)

v.
STATE OF MARYLAND

)
)

Respondent.

)

Case No. 111360-C

MEMORANDUM OPINION AND ORDER
Richard Miller (hereafter “Petitioner”) filed a Bifurcated Petition for Post
Conviction Relief and a Supplemental Petition for Post Conviction Relief in Case No.
111360-C (Docket Nos. 110 and 111) on June 26, 2019, pursuant to Md. Code Ann., §§
7-101 etseq., and Maryland Rule §§ 4-401 et seq. Petitioner was represented by D. Scott
Whitney, Esq. of the Office of the Public Defender at oral argument, which occurred on
October 4, 2019. The matter was taken under advisement.
BACKGROUND
On November 6, 2008, Petitioner was convicted of Attempted First-Degree Sex
Offense, Attempted Kidnapping, and First-Degree Assault.
represented by Richard Basile, Esq.

At trial, Petitioner was

On December 17, 2008, the Honorable Judge

McGann imposed a sentence of Life for First Degree Sex Offense, 30 years for Attempted
Kidnapping to run consecutively with Count 1, and 25 years for First Degree Assault, to
run consecutively to Counts 1 and 2.

AUG 27 2020
Clerk of the Circuit Court
Montgomery County, Md.

l

Relevant Procedural History

I.

In November 2008, Petitioner appeared before the Honorable Terrence McGann for
trial. At trial, Petitioner was represented by Richard Basile, Esq. A jury found Petitioner
guilty of Attempted First Degree Sex Offense, Attempted Kidnapping, and First Degree
Assault. In December 2008, Judge McGann sentenced Petitioner.
On January 16, 2009, Mr. Basile fded Petitioner’s Application for Sentence Review
by a three-judge panel. On September 2, 2009, a three-judge panel affirmed Petitioner’s
sentence.

In February of 2009, Mr. Basile filed Petitioner’s Request for Sentence

Reduction. In June of 2010, Petitioner filed a motion for leave to file a belated appeal,
which had been denied.
On July 11, 2011, Petitioner, acting pro se, filed a-petition pursuant to the Maryland
Post Conviction Procedure Act, complaining that he was denied effective assistance of
trial counsel, and that trial counsel rendered ineffective assistance by failing to file a notice
of appeal. On June 18, 2012, Assistant Public Defender David Russel, Esq. entered his
appearance on Petitioner’s behalf.
On December 12, 2012 Petitioner, through counsel, filed a supplemental petition
for post-conviction relief, addressing the claim that trial counsel failed to note an appeal.
The State responded to this petition, stating that the evidence that would be presented at
Petitioner’s post-conviction hearing would not support Petitioner’s claims of error. On
March 18, 2013, Petitioner filed a motion to withdraw his post-conviction petition, which
was granted by the Honorable Judge Robert Greenberg on March 21, 2013.
On October 26, 2015, Petitioner filed for post-conviction relief, again arguing on
the claim that trial counsel failed to note an appeal. On April 1, 2016, a hearing was held

2

on the petition. On May 18, 2016, Judge Greenberg denied the motion for post-conviction
relief and ruled that any subsequent motion should be filed by counsel, and should such a
motion be filed by counsel, Judge Greenberg would be willing to reconsider his ruling.
On August 9, 2016, Petitioner filed a motion to withdraw his petition, which was granted
by the Court.

'

On October?26, -2016, Petitioner filed a conditional supplemental petition for post­
conviction relief. On November 3, 2016, Petitioner filed a bifurcated petition for post­
conviction relief. Both motions were denied without prejudice.
On December 13, 2018, Petitioner filed a petition for post-conviction relief
alleging ineffective assistance of counsel. On June 26, 2019, Petitioner also filed a
Bifurcated Petition for Post-Conviction Relief and Conditional Supplemental Petition for
Post-Conviction Relief.
STANDARD OF REVIEW
The Maryland Uniform Post-Conviction Procedure Act (“UPPA”) provides for an
independent and collateral inquiry into the validity of a conviction and/oi sentence. See
Mosley v. State, 378 Md. 548, 559-60 (2003). In.order to proceed on a collateral challenge
to a sentence, a petitioner must allege that the sentence, imposed violates the Constitution
of the United States or the Constitution or laws of the State; the court lacked jurisdiction
to impose the sentence; the sentence exceeds the maximum allowed by law; or the
sentence is otherwise subject to collateral attack on a ground of alleged error that would
otherwise be available under a writ of habeas corpus, writ ot coiam nobis, oi othei
common law or statutory remedy. Md. Code, Crim Proc. 7-102. A sentence that is within
the maximum allowed by law and not challenged as an allegation against the fairness of

the trial is generally not grounds for post-conviction relief. See Austin v. Dir-. Patuxent
Inst., 237 Md. 314, 317 (1965); Fisher v. Warden ofMd. Hoase-of Correction, 225 Md.
642, 643-44(1961).
A petitioner seeking post-conviction relief contending that counsel’s assistance
was so defective as to invalidate his conviction or sentence must show two required
elements. Strickland v. Washington. 466 U.S. 668, 687.(1984). First, the defendant must
show that counsel’s perfonuance was deficient. This requires showing that counsel made
errors so serious that counsel was not functioning as “counsel” guaranteed to the defendant
by the Sixth Amendment. Id. Defendant must show that counsel’s representation fell
below an objective standard of reasonableness.

Id.

Judicial scrutiny of counsel’s

performance must be highly deferential. Id. at 689. Defense counsel is strongly presumed
to have rendered adequate assistance and made all significant decisions in the exercise of
reasonable professional judgment. Id. at 690. Defendant bears a heavy burden to establish
deficient performance, and must overcome the presumption that, under the circumstances,
the challenged action might be considered sound trial strategy. Harris v. State, 3030 Md.
685, 697 (1985).
The second element required to show a claim of ineffective assistance of counsel
is that the attorney’s deficient performance was prejudicial, Strickland, 466 U.S. at 690.
This requires demonstrating that counsel’s errors were so serious as to deprive defendant
of a fair trial. Id. In order to establish prejudice, defendant must establish that there is a
substantial possibility that, but for counsel’s unprofessional errors, the results of the
proceeding would have been different, Oken v. State, 343 Md. 256, 284 (1996). A proper
analysis of prejudice, however, should not focus solely on outcome determination, but

4

an

■ should consider'“whether the result of the proceeding was fundamentally unfair or
unreliable.” Id.
DISCUSSION
Was the Petitioner denied effective assistance of counsel under the
Sixth Amendment of the U.S. Constitution and Article 21 of the
Maryland Declaration of Rights?
In Petitioners’ original Petition for Post Conviction Relief filed, on his behalf
through counsel. Petitioner raises five allegations of error .that relate, to perceived
deficiencies of trial counsel throughout the course of the trial. Petitioner’s allegations
. Surround five areas: trial counsel failed to confer with Petitioner regarding withdrawing a
NCR plea, trial counsel failed to hire an expert to render an opinion on PCP intoxication,
trial counsel failed to obtain and introduce evidence of Petitioner’s hospitalization for PCP
intoxication, trial counsel failed to request lesser-included offenses, and trial counsel
failed to object to the giving of a flight jury instruction. .
After Petitioners’ counsel filed the Petition for Post Conviction Relief, Petitioner
filed a supplemental Petition that added additional claims of error to the original Petition.
At the October 4, 2019 Hearing, these additional issues were narrowed down into the two
issues: that trial counselfailed to note an Appeal even though Petitioner wanted an Appeal,
and that trial counsel provided ineffective assistance of counsel by failing to object to two
voir dire questions, which Petitioner believed allowed potential jurors to improperly
exclude themselves from consideration for the jury panel.
The Strickland two-prong test, described above, applies to ineffective assistance
of counsel claims. The burden of establishing deficient representation of counsel under

'

5

the first prong is a “heavy burden.” Harris v. Stale, 303 Mcl. 685, 687 (1985). There is a
“strong presumption” that trial counsel acted within the range of professional assistance,
and the burden to overcome that presumption is placed squarely on the challenger.
Strickland, 466 U.S. at 694-95. Petitioner must show that “counsel made errors so serious
that counsel was not functioning as the ‘counsel’ guaranteed by the Sixth Amendment.”
Harrington v. Richter, 131 S.Ct. 770, 787 (2011). In addition to the burden of establishing
1

deficient performance, the challenger must show that there was prejudice that resulted
from such performance.
In Maryland, the establishment of the prejudice portion of the test requires that the
petitioner demonstrate that there is a “substantial possibility that, but for counsel’s
unprofessional errors, the result of the proceeding would have been diffeient. Bow ei s v.
State, 320 Md. 416, 426 (1990). This requires establishing more than “some conceivable
effect on the outcome of the proceeding.” Harris, 303 Md. at 700. It must be demonstrated
that the errors are “so serious as to deprive the defendant of a fair trial. Harrington, 1 j 1
S.Ct. 770 at 787-88. As will be discussed in more detail below, Petitioner has failed to
carry the heavy burden imposed upon him to show that his trial counsel was ineffective
under the first prong of the Strickland test.
a. Does the trial counsel’s decision to withdraw NCR plea amount to an action
so deficient as to constitute ineffective assistance of counsel?
Petitioner argues that trial counsel’s decision to withdraw the not criminally
responsible plea was against Petitioner’s wishes, and therefore amounts to ineffective
assistance of counsel that was prejudicial to Petitioner s defense. Petitionei aigues that
trial counsel did this without formally conferring with Petitioner. Petitioner alleges that

6

by doing this, trial counsel “took Petitioner’s right to withdraw the plea trom the
Petitioner.” According to Petitioner,-he wanted to continue with the plea ot not ciiminally
responsible because he felt that his PCP intoxication on the day of the offense caused him
to lack the ability to be able to conform his conduct to the requirements of the law.
At Petitioner’s Post Conviction hearing, trial counsel testified that a formal evaluation
of the Petitioner was conducted by four experts within the Department of Health and
Mental Hygiene. According to the Report, Petitioner was deemed competent to stand trial.
Furthermore, the Report concluded that at the time of the offense, Petitionei was
com petent and therefore criminally responsible. The Report did note Petitioner s histoiy
of PCP dependence.

'

■

Trial counsel testified that after receiving the Report, he had a very short timefiame in
which to discuss the results with the Petitioner. Because of this, trial counsel recalled that
very shortly after receiving the Report, he met with Petitioner where Petitioner was
incarcerated and thoroughly went. through the Report with his client (on direct
examination, trial' counsel recalled reading the Report to the Petitioner). Aftei going
through the results, of the Report with his client, trial counsel testified that he told
Petitioner that there was no evidence to support the NCR plea and that the plea should be
withdrawn. Trial counsel stated that Petitioner understood this and agreed to withdraw
the NCR plea and replace it with a plea of not guilty.
Furthermore, the transcript of the proceeding as well as testimony of trial counsel at
the Post Conviction Hearing support the fact that the NCR plea was withdiawn in open
court in the presence of the Petitioner. Trial counsel testified that at the time the NCR
plea was withdrawn, Petitioner did not do anything that would indicate that he opposed

7

the decision. The

transcript of this proceeding also indicate that Petitioner did not do

anything to object the withdrawal of the NCR plea.
As stated before, under the Strickland test, there is a heavy burden placed upon those
arguing ineffective assistance of counsel

In his Petitions, as well as at the Post Conviction

not remember having the
Hearing, Petitioner merely alleges the following: that he did
conversation with his attorney about the competency report, that he never knew that the
NCR plea was

being withdrawn, and that he did not know that he was the one who could

make the decision to withdraw the NCR plea.

Petitioner argues that if he had known he

as he believed
could choose not to withdraw the NCR plea, he would not have done so
that he was not competent at the time of the offense because he was so consumed by PCP.
Petitioner’s arguments fail to meet the strict standard set forth by Slricldand. In ordei
,o succeed under the first prong of the Strickland test, Petitioner must demonstrate that
there is a

"substantial possibility that, but for counsel’s unprofessional errors, the result of

State, 320 Md. 416, 426 (1990).
the proceeding would have been diifeient. ” Bowers v.
Because four ex

perts within the Department of Health and Mental Hygiene concluded that

Petitioner was in fact

criminally responsible, while noting Petitioner’s dependency on

PCP, Petitioner cannot demonstrate
different,

that the result of the proceeding would have been

Further, the Court agrees with the State’s argument that because there was no

evidence to

support the NCR plea, Petitioner has not suffered prejudice by this plea being

withdrawn.
expert on PCP intoxication
b. Does the trial counsel’s decision to not hire an
amount to an action so deficient as to constitute ineffective assistance of
counsel?

8

During the trial, trial counsel made several attempts to interview Dr. Cerise Vablais,
one

of the doctors who evaluated Petitioner, but the trial court was not satisfied that Dr.

Vablias could render an opinion on PCP intoxication since it was not her expertise. No
expert on PCP intoxication was

introduced during the trial. Petitioner argues that trial

counsel's failure to hire an expert in the field of PCP Ingestion and PCP intoxication
amounts to ineffective assistance of counsel, because had such an expert been employed,
the jury would have heard evidence about the use and effects of PCP, which would have
altered the outcome of the trial.
At the Post Conviction Hearing, trial counsel testified that he was unable to hire
another expert to testify on this issue because he had no money to do so. Trial counsel
explained that Petitioner’s girlfriend was taking from her 401k to pay trial counsel, and
there were not enough funds to hiie an expert. In response to this, Petitioner claimed that
there were many experts on PCP addiction that his attorney could have gone to , and that
there was money to pay for such an expert. Petitioner alleges that the failure to hire an
expert on PCP addiction severely prejudiced Petitioner’s case because trial counsel was
unable to provide adequate expert testimony to negate the specific intent of the crimes
charged.
When
that Petitioner

examining this claim under the two-pronged test of Strickland, it is cleai
failed to satisfy either prong. Petitioner fails to persuasively argue that trial

counsel’s failure and inability to hire an expert on

PCP addiction was so deficient as to

amount to ineffective assistance of counsel.. Additionally, Petitioner has failed to put forth
any evidence that such expert testimony would have been helpful to his case, making it
impossible to establish prejudice.

9

c. Does trial counsel’s decision to

not obtain and introduce evidence of

Petitioner’s hospitalization for PCP intoxication amount to an action so
deficient as

to constitute ineffective assistance of counsel?

Petitioner argues that trial counsel also ten
failing to obtain the

medical records from Prince George’s Hospital, which would have

shown that Petitioner was
extremely severe case
I

dered ineffective assistance of counsel by

transported and treated at that hospital for an “acute or

of PCP intoxication.”: ; Petitipppr.argpps that this information was

crucial to the Voluntary Intoxication

defense that Petitioner put on during trial. Petitioner

been introduced at trial, the jury would have been
further claims that had this evidence
that Petitioner had been treated for PCP intoxication, and would
able to consider evidence
under the influence of PCP at the time of
have supported the argument that Petitioner was
the offense.
In his Petition, Petitioner concedes that this fact alone is not enough to render trial
counsel ineffective but requested that this Court consider this in addition with the other
discussed previously, the standard of establishing
claims of error in the Petition. As
of counsel is that set forth in the Strickland case, and requires that
ineffective assistance
Petitioner show that the perfbnnance of counsel was deficient and that such deficiency
the
finds that the Petitioner failed to
prejudiced the Petitioner. Accordingly, the Court
establish either prong with regard to trial counsel’s

failure to introduce evidence related

to Petitioner’s hospitalization for PCP addiction.
d. Does trial counsel’s decision not to request lesser
to an action so deficient as to co

included offenses amount

nstitute ineffective assistance of counsel?

10

Petitioner also

claims that trial counsel’s failure to request a lesser included instruction

crimes
to all of the greater included instructions for all of the greater specific intent
f counsel that entitles Petitioner to relief. Petitioner
amounts to ineffective assistance o
supports this claim by arguing that his voluntary intox.cation, while not a defense to a
criminal charge, may negate the requisite mental state required for a crime. Petitioner also
argues that for the specific intent crimes

with which he was charged (specific intent sex

assault), voluntary intoxication “may negate
crimes, attempted kidnappihg, first degree
offense to the lesser included
guilt by mitigating the specific intent of the greater
offenses.” At the

Post Conviction Hearing, trial counsel was unable to provide testimony

issue at trial and was not
on this claimi as
as he could not recall being asked about this 1
provided with a copy of the Petition before the Hearing.
The Court in Strickland \vAA that “judicial scrutiny of counsel’s performance must be
highly deferential,” finding that

a “fair assessment of attorney performance requires that

eliminate the distorting effects of hindsight. to reconstruct the
every effort be made to
circumstances of counsel’s challenged conduct, and to evaluate the conduct fiom
counsel’s perspective at the time.

” Strickland, 466 U.S. at 689-90. Here, the Court finds

that Petitioner was unable to “overcome

the presumption that, under the circumstances,

the challenged action ‘might be considered sound trial strategy.

Id. at 690 (quoting

Michel v. Loinsamt.'jSO U.S. 91,101 (1984)). At trial, Petitioner’s defense was voluntary
intoxication.

If trial counsel had requested the lesser-included offenses, which are general

intent crimes,

that defense would not have applied, and Petitioner would still stand

convicted of some charge. Therefore, Petitioner was

11

not only unable to demonstrate that

the failure to request lesser-included offenses was unreasonable and deficient conduct , but
he was also

unable to demonstrate that he suffered prejudice because ot this decision.

e. Does trial counsel’s decision not to object to a flight jury instruction amount
to an action so deficient as to constitute ineffective assistance of counsel?
At trial, the Court gave the jury a flight instruction, which stated that a person’s flight
after the commission of a crime may be considered as evidence of guilt. Petitioner argues
that trial counsel did not even

attempt to object to the giving of this instruction, eithei

before or after it had been given. Petitioner argues that this has hurt his case because there
was no evidence of flight.

At the Post Conviction Hearing, Petitioner maintained that he

merely left the scene “like a normal person would,” and did not flee. Petitioner argues
that his departure from the scene of the crime is not the same as flight and therefore the
giving of this instruction was not supported by evidence. Petitioner also argues that this
caused him prejudice because

it allowed the State to indicate that Petitioner had fled the

scene because of his consciousness of guilt at the time of the offense.
Conviction Hearing,

At the Post

trial counsel testified that he could not recall a flight instruction being

given at the trial.
Whether Petitioner left the scene based on consciousness of guilt or for an innocent
reason is a question tor the juiy to decide, Therefore, the Court finds that trial counsel’s
decision not to object to this jury instruction falls within the wide range of discretion
afforded to

him. Strickland, 466 U.S. at 689. Petitioner has also failed to provide the

Court with any argument as to why the failure to object to this juiy instruction prejudiced
Petitioner or how the outcome

of the trial would have been different had trial counsel

objected to this jury instruction.

12

f.

Does trial counsel’s failure to note an Appeal amount to an action so
deficient to constitute ineffective assistance of counsel?

Petitioner argues

that trial counsel was, also ineffective for failing to note an appeal in

the case. Petitioner states

that at fhe conclusion of trial, he requested that trial counsel

submit “all” of the post trial filings - including an a ppeal. Petitioner states that he never
told his trial counsel that he did not want to file an appeal and was surprised to hear that
an appeal had never

been filed in this case. Petitioner argues that the failure to honor his

request to note an appeal on his behalf violated his right to effective assistance of counsel,
guaranteed by the Sixth and Fourteenth Amendments of the U.S . Constitution, and the
Maryland Declaration of Rights.
At the

Post Conviction Hearing, trial counsel testified that some time after sentencing,

appeal, he met with Petitioner to go into detail
but within the 30-day timeframe to file an
about Petitioner’s post-trial rights. Trial counsel testified that he recalls this conversation
'happening where the

Petitioner was incarcerated, sometime aftei-Petitioner was sentenced

because this was a long conversation that would not have been able.to occur in the
courtroom
len

directly after the sentencing hearing. Trial counsel testified that during this

gthy conversation, he told Petitioner that the real issue was the severity of the sentence

rather than Petitioner’s guilt.
evidence presented oh

Trial counsel stated that based on the overwhelming

Petitioner’s guilt, it did not appear that there would be success if

■ the caseswent hy appeal, Because ofithis; trial counsel advised Petitioner that it would not
be logical to file an appeal, and instead told Petitioner that he should pursue a three-judge
review panel-as it would more likely lead to a reduction of Petitioner’s sentence.

13

According to trial counsel, at the conclusion of this conversation, Petitioner agreed
that an appeal would not be successful and agreed that an appeal should not be tiled. At
the Post Conviction Hearing, Petitioner testified that he did not recall having this
conversation with trial counsel. Petitioner could only vaguely remember meeting with
trial counsel at the detention center, and states that everything that happened aftei
sentencing is “just a blur.”

•

Petitioner fails to provide the Court with adequate evidence that there was an
understanding that trial counsel would file an appeal on his behalf. The Court finds tiial
counsel’s testimony at the Post Conviction Hearing about the lengthy conversation he had
with Petitioner on how an appeal would be futile convincing. Trial counsel also testified
that the real issue after trial was the severity of Petitioner’s sentence, and that he suggested
to Petitioner that requesting a three-judge panel would be Petitioner’s best chance of
lowering that sentence. The Record supports trial counsel’s testimony, showing that
Petitioner filed an application for review of sentence by a three-judge panel on Januaiy
16, 2009 at Docket Entry No. 43. The hearing on this was held on September 2, 2009,
and a three-judge panel affirmed Judge McGann’s sentence on December 17, 2008 at
Docket Entry No. 49.
g-

Does trial counsel’s failure to object to certain voir dire questions amount to
an action so deficient to constitute ineffective assistance of counsel?

Lastly, Petitioner argues that trial counsel’s failure to object to a two-part voir dire
question during jury selection amounted to ineffective assistance of counsel, as these
questions caused the Petitioner to suffer prejudice.

Petitioner believes that the two

questions, which related to potential juror’s personal experiences with the criminal justice

14

prospective jurors were able to obey instructions given by the court in spite of thenpersonal views.” Id. at 20 (citing Witt, 469 U.S. at 424).
In the instant case, there was no objection made to the voir dire question at issue.
Further, in examining this claim under the first prong of the Strickland test, the Court
cannot find that trial counsel’s failure to object to the voir dire question fell below an
objective standard of reasonableness. As previously stated, Petitioner carries a heavy
burden of proving that trial counsel did not act within the “wide range of professionally
competent assistance.” Strickland, 466 U.S. at 690. As Petitionei stated at the Post
Conviction Hearing that he could not recall the allegations made regarding the voir dire
question and requested that the Court rely on Dingle in making its decision, the Court
finds that Petitioner failed, to carry the heavy burden of showing that trial counsel was
ineffective. Further, even if trial counsel was ineffective in respect to this claim, Petitioner
has not put forth arguments that could show that trial counsel s failure to object to the voii
dire question prejudiced Petitioner’s case.
CONCLUSION
Petitioner is not entitled to modification or vacation of his sentence. Accordingly,
the Petition for Post-Conviction Relief is hereby DENIED.
ORDER
Upon consideration of Petitioner Richard Miller’s Petition for Post-Conviction
Relief, the State’s response thereto, a full hearing having been conducted and upon
consideration of arguments presented, for the reasons set forth in the accompanying
Opinion, it is this 24th day of August 2020, hereby

16

system, allowed the potential jurors to improperly exclude themselves from consideration,
and that trial counsel should have objected to these questions. At the Post Conviction
Hearing, both Petitioner and trial counsel could not recall the specific voir dire questions
that Petitioner objected to. Petitioner relied on the case Dingier. State, 361 Md. 1 (2000)
in arguing that the voir dire questions were improper.
In Dingle, the Court of Appeals was faced with deciding whether a series ot two-part
questions relating to whether potential jurors (or their family members or close personal
friends) had been victims of crime, and whether that experience would affect that potential
juror’s ability to be impartial during trial, was improper. The petitioner in Dingle had
objected to the two-part format because it resulted in a “jury in which the venire persons
themselves, by ‘unilateral decision,’ determined their fitness to serve on the jury.” Dingle,
361 Md. at 1. The petitioner also argued that this type of question deprived him of
information “relevant and critical to the exercise of his challenges tor cause.” Id.
In Dingle, defense counsel had objected to the two-part question that was presented to
the prospective jury, but the objection was overruled. The Court ot Appeals reversed this
decision, holding that the trial court erred in overruling the objection. In so holding, the
Court of Appeals found that when a prospective juror is challenged on the basis of his oi
her statement regarding partiality, “the court simply can not rely merely on what the
venire person says.

Moreover, the court is well equipped to make such factual

determinations and,'in fact is required to do so.” Id. at 19 (citing Waimvrightv. Witt, 469
U S. 412, 428 (1985). Further, the Court of Appeals held that the voir dire question at
issue wais “substantively and procedurally inadequate for failure to identify the state of
' mind necessary for striking a venire person for cause and to determine whether the

15

*

/

ORDERED, that the Petition for Post-Conviction Relief be, and the same hereby
is, DENIED.
r

A
RICHARD E. JOI^yAN, Judge
Circuit Court for Montgomery County, Maryland

#

17
\

